<html>
<title> - [H.A.S.C. No. 114-11] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 114-11]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                     DEPARTMENT OF THE NAVY FISCAL

                      YEAR 2016 BUDGET REQUEST FOR

                     SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                           FEBRUARY 25, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               ____________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
94-098                      WASHINGTON : 2015

                                  
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>  
                                     
 


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
STEVEN M. PALAZZO, Mississippi       JAMES R. LANGEVIN, Rhode Island
BRADLEY BYRNE, Alabama               RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          MADELEINE Z. BORDALLO, Guam
DUNCAN HUNTER, California, Vice      HENRY C. ``HANK'' JOHNSON, Jr., 
    Chair                                Georgia
VICKY HARTZLER, Missouri             SCOTT H. PETERS, California
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
RYAN K. ZINKE, Montana
STEPHEN KNIGHT, California
               David Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Glueck, LtGen Kenneth J., Jr., USMC, Deputy Commandant for Combat 
  Development and Integration, and Commanding General, Marine 
  Corps Combat Development Command...............................     4
Mulloy, VADM Joseph P., USN, Deputy Chief of Naval Operations, 
  Integration of Capabilities and Resources......................     6
Stackley, Hon. Sean J., Assistant Secretary of the Navy 
  (Research, Development, and Acquisition), Department of the 
  Navy...........................................................     1

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe, a Representative from Connecticut, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    29
    Forbes, Hon. J. Randy, a Representative from Virginia, 
      Chairman, Subcommittee on Seapower and Projection Forces...    27
    Stackley, Hon. Sean J., joint with VADM Joseph P. Mulloy and 
      LtGen Kenneth J. Glueck, Jr................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................    71

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    75
    Mr. Hunter...................................................    76
    Mrs. Walorski................................................    76
    Mr. Wittman..................................................    75
DEPARTMENT OF THE NAVY FISCAL YEAR 2016 BUDGET REQUEST FOR SEAPOWER AND 
                           PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                      Washington, DC, Wednesday, February 25, 2015.
    The subcommittee met, pursuant to call, at 2:30 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.<greek-l>

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                     PROJECTION FORCES deg.

    Mr. Forbes. What we are going to do in the interest of 
time--because, as we mentioned to you, we may have another set 
of votes called--Mr. Courtney and I both are going to waive our 
opening remarks, and we are simply going to put those remarks 
in the record.
    [The prepared statements of Mr. Forbes and Mr. Courtney can 
be found in the Appendix beginning on page 27.]
    Mr. Forbes. We are going to waive any introductions we 
might have had for our panel members because each of the 
members have those in their packages. And so what we would like 
to do is go ahead and start with your opening remarks.
    Mr. Secretary, are you going to start us off? So if you 
will do that. Then are we going to go to, General, or, Admiral, 
next after you? Ok, so why don't we do that?
    And, Mr. Secretary, we will let you start us off. Thank 
you, the three of you, for being here. Again, without 
objection, we are going to include all of our speakers' written 
remarks in the record.
    So Mr. Secretary, we turn the floor over to you.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
 NAVY (RESEARCH, DEVELOPMENT, AND ACQUISITION), DEPARTMENT OF 
                            THE NAVY

    Secretary Stackley. Chairman Forbes, Ranking Member 
Courtney, distinguished members of the subcommittee, thank you 
for the opportunity to appear before you today to address 
Department of the Navy acquisition programs.
    Joining me today are Deputy Chief of Naval Operations, Vice 
Admiral Joe Mulloy; and Deputy Commandant, Marine Corps, for 
Combat Development Integration, Lieutenant General Ken Glueck.
    With the permission of the subcommittee, I propose to 
provide brief opening remarks and submit a separate formal 
statement for the record.
    We are in the fortunate position of having received the 
national defense authorizations and appropriations bills in the 
first quarter of this fiscal year. I cannot overstate that 
escaping the extraordinary disruption of government shutdown, 
furloughs, extensive continuing resolutions, sequestration, and 
the budget uncertainty experienced in prior recent years gives 
us a measure of stability that enables far greater efficiency 
and effectiveness in carrying out our mission this year.
    In fact, the Department of the Navy fared extremely well in 
this year's bills. And we greatly appreciate your efforts for 
not only has Congress fully supported our request, the 
committee's increased procurement in our most critical programs 
sending a strong signal of support regarding the role of our 
Navy and Marine Corps. However, the greater reality is that 
across fiscal years 2013, 2014, and 2015, the Navy's budget has 
been reduced by $25 billion compared to the funding that we had 
determined was necessary to meet the Defense Strategic Guidance 
or the DSG. As a result, quantities of ships, aircraft, and 
weapons have been impacted. Development programs have been 
stretched. Modernization has been slowed. Deployments have been 
cancelled. Deployments have been stretched, placing greater 
strain on the force. Depot and facilities maintenance has been 
deferred, all adding to a growing backlog.
    And, with a significant portion of the reductions levied 
against investment accounts, the resultant procurement quantity 
reductions had the perverse impact of driving up unit cost for 
weapons systems at a time when cost is one of the great threats 
before us and, too, weakening our strategic industrial base.
    In building the 2016 budget request, we have had to wrestle 
with the clash between the needs of our military to meet the 
requirements of the DSG, the implications of the threats posed 
by the increasingly technologically capable adversaries or 
potential adversaries, and the implications of the Budget 
Control Act.
    We have been faithful to our fiscal responsibilities, 
leveraging every tool available to drive down costs such that 
alongside range and speed and power and payload, affordability 
has become a requirement.
    Independent of the fiscal environment, the demand for naval 
presence, in the words of the CNO [Chief of Naval Operations], 
being where it matters when it matters, is on a steady rise. 
Near half our fleet is routinely at sea, and of that number, 
about 100 ships and more than 75,000 sailors and marines are 
deployed. Therefore, we have placed a priority on forward 
presence, near-term readiness, investment in those future 
capabilities critical to our long-term technical superiority 
and stability in our shipbuilding program.
    Our shipbuilding program is, in fact, very stable. The 
fleet under construction is about 65 ships strong. As 
highlights, America LHA-6, commissioned this past fall with the 
keel of her sister ship, Tripoli LHA-7, laid earlier in the 
year. These ships' tremendous aviation capabilities when 
coupled with the Marines' version of the Joint Strike Fighter 
open a new chapter in naval aviation. At Newport News, as we 
complete construction and testing of our first new design 
carrier in more than 40 years, CVN-78, the Gerald Ford, we 
start construction of CVN-79, the John F. Kennedy. In doing so, 
we are strongly partnered with industry to control cost in the 
lead ship and to leverage lessons learned and to make the 
necessary investments to reduce cost on follow ships. Likewise, 
DDG-1000, the first new design destroyer in 30 years, is being 
brought to life readying for her sea trials later this year. 
DDG-51 construction is progressing well with the first restart 
ship, DDG-113, on track to deliver at Ingalls Shipyard in 2016.
    Equally important is the Flight III DDG-51 destroyer 
upgrade. The Navy relies on your continued support for this 
capability, which is so critical to countering increasing 
cruise and ballistic missile threats.
    Littoral Combat Ship continues to march smartly down 
learning curve at both building yards, and as was announced, 
the Navy will commence a new frigate-class design based on 
modifying the current LCS, with an over-the-horizon surface 
missile, antisubmarine warfare capability exceeding that of 
today's surface combatants, enhanced radar, electronic warfare 
capabilities, enhanced survivability features, and other 
upgrades significantly expanding the ship's range of 
operations.
    In submarines, we continue to leverage learning on the 
Virginia program. And the next major upgrade, Virginia Payload 
Modules, is on track to provide increased undersea strike 
capacity. And we are rapidly ramping up design activities on 
the Ohio replacement program to support her critical schedule. 
In other ship programs, we have requested the balance of 
funding for a 12th LPD [Amphibious Transport Dock] class. We 
thank the Congress for its support in prior years, and we are 
going to leverage the benefits brought by that ship to our 
amphibious force.
    And we are proceeding with three new major shipbuilding 
programs: the Fleet Oiler T-AO(X) in 2016; the next big deck 
amphib [amphibious assault ship], LHA-8, in 2018--excuse me, 
2017; and the replacement for the LSD-41, the LX(R) at the end 
of the FYDP [Future Years Defense Program]. Each is critical to 
our force. Each is critical to the industrial base. And 
affordability is critical to each. So we have constructed an 
acquisition strategy to meet these objectives. Of interest to 
this subcommittee, we have awarded the planning contract for 
the refueling overhaul, CVN-73 George Washington, and likewise, 
we are proceeding with the execution of the cruiser and LSD 
[Landing Ship, Dock] modernization programs in accordance with 
Congress' approval in 2015.
    Major aviation programs under this subcommittee's purview, 
the Navy's game-changing maritime patrol aircraft, the P-8A 
Poseidon, is today on deployment, and we are on track with 
planned follow-on incremental capability upgrades to that 
aircraft. And the Navy's next-generation early warning 
aircraft, the E-2D Advanced Hawkeye, has entered the fleet and, 
in conjunction with other fleet assets, will be providing an 
air defense capability far beyond that available in the Navy 
today.
    Meanwhile, the third leg of our Naval Air-Ground Task 
Force, the Marine Corps' tactical vehicles is at the front end 
of much needed recapitalization. In 2015, we commence 
procurement of the joint light tactical vehicle to replace the 
Humvee. We press forward with survivability upgrades to the 
amphibious assault vehicle to ensure their viability for future 
combat. And we are moving forward with acquiring a highly 
capable, highly survivable wheeled vehicle in the first phase 
of the amphibious combat vehicle program. The strategy for 
procuring this vehicle is striking a necessary balance between 
requirements and affordability.
    And separately, we commence procurement of our newest ship-
to-shore connector to provide high-speed transfer of Marine 
Corps tactical vehicles from the sea.
    In summary, the Department's 2016 budget request is sized 
and shaped to provide that measure of capability, capacity, and 
readiness, to uphold national policies and to protect us 
against potential enemies.
    In response to sequestration in 2013, the Bipartisan Budget 
Act level funding in 2014 and 2015, and the reductions across 
2016 through 2020, the Department has been judicious in 
controlling costs, reducing procurements, stretching 
developments, and delaying modernization. However, these 
actions necessarily add cost to our programs, add risk to our 
industrial base, and add risk to our ability to meet the 
Defense Strategic Guidance. If we are forced to execute at BCA 
[Budget Control Act] levels in fiscal year 2016 and beyond, 
these cuts will go deeper, and we fundamentally change our Navy 
and Marine Corps and the industrial base we rely upon.
    Mr. Chairman, thank you for the opportunity to appear 
before you today. We look forward to answering your questions.
    [The joint prepared statement of Secretary Stackley, 
General Glueck, and Admiral Mulloy can be found in the Appendix 
on page 31.]
    Mr. Forbes. Thank you, Mr. Secretary.
    Admiral, are you up next, or, General? Which one is going 
to--General, I think you are up next then.
    Thank you for being here, and we yield you the floor.

    STATEMENT OF LTGEN KENNETH J. GLUECK, JR., USMC, DEPUTY 
    COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION, AND 
  COMMANDING GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND

    General Glueck. Thank you, Chairman Forbes, Ranking Member 
Courtney, distinguished members of the subcommittee. Thank you 
for this opportunity to testify before you today.
    The Marine Corps' ability to serve as our Nation's premiere 
crisis response force is due in a large part to this 
subcommittee's continued strong support. And, on behalf of all 
Marines, I would like to say thank you.
    The current situation is chaotic. This committee has heard 
from numerous witnesses this year who have characterized the 
global security situation as one that is rapidly changing, 
increasingly complex. These multidimensional challenges 
highlight the increasingly broad range of warfighting 
capabilities our military must possess to ensure success on the 
battlefield. While these challenges are global in nature, they 
increasingly occur in areas that have a maritime component. 
Increased competition for limited natural resources, 
demographic shifts to the coastal urban centers, territorial 
disputes over maritime borders, will continue to contribute to 
future conflict. These conflicts will require a robust naval 
force that can respond rapidly from the sea.
    Your Navy and Marine Corps team provides the means to 
ensure our national interests remain protected. Forward-
deployed, forward-stationed forces enable us to respond to 
today's crisis with today's force today. These forces are 
characterized by their flexibility and their ability to loiter 
indefinitely to provide a deterrent and, when required, to 
project power ashore at the place and the time of our choosing. 
They provide our Nation's leadership decision space necessary 
to make informed decisions during rapidly evolving situations. 
Amphibious warships with embark Marines are crucial enablers to 
these capabilities. Referred to as the Swiss Army knife of the 
fleet, they are versatile, interoperable warfighting platforms 
capable of going into harm's way and providing diverse 
capabilities unlike any other naval platform.
    However, demand for these ships and embark capabilities far 
outpace the available inventory. Because of inventory 
shortages, the Marine Corps has invested in land-based, 
special-purpose Marine Air-Ground Task Forces and is exploring 
how to best leverage existing alternative sea-based platforms 
to generate enhanced littoral mobility, maneuver capabilities 
for our Marine Corps forces positioned in Europe, Africa, and 
Pacific areas of operation.
    Due to the generosity and foresight of Congress, our Nation 
will greatly benefit from LPD-28, the 12th ship in the San 
Antonio class, which is now programmed. When that ship comes on 
line, your naval forces will have an additional capability to 
respond to crisis. This remarkable line of amphibious ships has 
proven itself since 2006, and has provided tremendous 
capability to deployed amphibious ready groups and our embark 
Marines. The recent decision to base the dock landing ship 
replacement, or LX(R), on the San Antonio hull form will 
provide a much improved capability and capacity. And in 
particular, enhanced command and control, aviation operations, 
and maintenance capabilities will enable this ship to conduct 
independent operations and further expand the operational reach 
of our forward deployed forces. The future amphibious fleet is 
one that is characterized by its rapid flexibility and 
interoperability with the joint force. No one platform will 
prove transformational. It will be the combination of existing 
amphibious warships, alternative platforms for Military Sealift 
Command, and the maritime preposition force, with ships, such 
as the Joint High Speed Vessel and the Mobile Landing Platform, 
with the Advanced Forward Staging Base that will enable us to 
achieve our full potential.
    Your Navy and Marine Corps team is committed to conducting 
the experimentation, war-gaming, and dedicated planning to 
ensure that we invest wisely in our future force to generate 
the most value for every platform in the inventory. Our 
forward-stationed and deployed Marines remain our Nation's 911 
force in readiness, and the investments that we are making in 
the future will ensure that they remain poised to do so. In 
partnership with the Navy, the Marine Corps looks forward to 
working with you to address these issues.
    I thank you for this opportunity and look forward to your 
questions.
    [The joint prepared statement of General Glueck, Secretary 
Stackley, and Admiral Mulloy can be found in the Appendix on 
page 31.]
    Mr. Forbes. Thank you, General.
    Admiral.

STATEMENT OF VADM JOSEPH P. MULLOY, USN, DEPUTY CHIEF OF NAVAL 
     OPERATIONS, INTEGRATION OF CAPABILITIES AND RESOURCES

    Admiral Mulloy. Sir, thank you. Chairman Forbes, Ranking 
Member Courtney, and distinguished members of the subcommittee, 
I am honored to be here today to testify on behalf your Navy 
seapower and projection forces.
    I welcome the new members of the subcommittee. I look 
forward to working with you all as we work on the 2016 budget. 
In developing this 2016 President's budget, we carefully 
analyzed the needs of our Nation and Navy in order to meet the 
missions of the Defense Strategic Guidance in the most recent 
Quadrennial Defense Review. This analysis looked at ends, ways, 
and means necessary to fight and win today's wars while 
building the ability to win tomorrow's; to operate forward to 
deter aggression; and to be ready to fight and responsibly 
employ our diverse force.
    We remain committed to the rebalancing of the majority of 
our naval forces to the Asia-Pacific with 60 percent of our 
ships and planes in that region by 2020. However, with the 
reality of the current Federal budget limitations and our 
commitment to do our part in bringing our Nation's fiscal house 
in order, we have made difficult choices to best balance 
capability, capacity, readiness, and our industrial base, and 
still meet the mission of the defense strategy, albeit with 
some risk.
    Our 2016 budget represents what we feel is the minimum 
necessary for our Navy to continue to be where it matters when 
it matters. It reflects difficult choices and actions we had to 
take due to shortfalls over the last 3 years. Thus any 
reduction in 2016, whether it be from sequestration or action 
by Congress at some level of funding in between, would be 
extremely challenging.
    I would like to reiterate what Secretary Stackley said: The 
Navy is down $25 billion over the last 3 years due to 
sequestration and the bipartisan budgets acts. That has 
required us to adapt and modify what we are doing. At the same 
time, this needs to stop. We are hanging on. We are making do, 
but the threats we face trying to defend this country, they 
don't have to make do. If we are limited to sequestration level 
funding, the Nation would need to think about what kind of 
military we can afford and how we would need to reprioritize in 
that situation. That analysis would need to factor in the 
global environment, the Nation's defense priorities, America's 
role in the international security system, and the capabilities 
and threats of our adversaries, as well as timing of 
sequestration and the method of implementation. That analysis 
will dictate what kind of cuts will be required. You have to do 
that analysis first, revise our defense strategy, before 
talking about specific impacts. We fight as a joint force. We 
must adjust as a joint force.
    We ask for your support in providing the strategy-based 
Navy that our 2016 budget will sustain and avoid the budget-
based Navy that sequestration will give us. I look forward to 
answering your questions.
    [The joint prepared statement of Admiral Mulloy, Secretary 
Stackley, and General Glueck can be found in the Appendix on 
page 31.]
    Mr. Forbes. Admiral, thank you.
    As I mentioned earlier, I am going to defer my questions to 
the end so that members can get their questions in.
    I would like to go to Mr. Courtney and yield to him for any 
questions he may have.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to the 
witnesses for your patience and your testimony.
    Secretary Stackley, you talked about some of the 
modifications last year that Congress made to improve the 
initial submission that came over last January. And I think it 
is important to note that this subcommittee actually kind of 
led the way in terms of those modifications just for no other 
reason that we go first in this whole process.
    But, again, if you look at the authorizing committees and 
Appropriations Committee, they pretty much followed the path 
that we started here. So we look forward to continuing that 
collaboration that made the best of a bad situation last year. 
The chairman deserves a lot of credit actually for the great 
work that took place last year.
    Secretary Stackley, just to zoom in on one issue that you 
mentioned, and I will let, again, the other members jump in. 
The Virginia Payload program, which, again, is an attempt to 
try and as quickly as possible replace the strike capacity that 
we are going to lose when the SSGNs [cruise missile submarines] 
go off line, the plan came over, again, talks about 
implementing that modification program in 2019 and 2020. The 
Joint Resources Oversight Council had talked about, again, 
trying to do that maybe even more robustly. And I was just 
wondering if you had any thoughts about possibly trying to 
accelerate that process in terms of the ability of the 
industrial base to handle it and, again, just sort of whether 
the Navy thinks that that is a plausible change that we can 
make to, again, fill that gap that is going to happen when 
the----
    Secretary Stackley. Yes, sir. I appreciate the question. 
First, the SSGNs, the four SSGNs, retire in the 2026 through 
2028 window. When they retire, each of those boats carries 
missile tube capacity for 154 missiles. So you look at about 
600-missile-tube capacity exiting the fleet in the mid-2020s.
    The Virginia Payload Module approach is to buy back that 
capacity, but in doing so, it is adding 28 missile tubes per 
submarine, 28-missile capacity per submarine. So it is going to 
take a long time to recapitalize the capacity that goes out 
with the GNs [shorthand for SSGNs] in the mid-2020s.
    The program plan is to commence installation of VPM, the 
Virginia Payload Module, with a next multiyear procurement in 
2019. The design and development has all been paced to that 
milestone. If we are going to try to really hammer away at what 
will be a shortfall to undersea strike capacity, the more we 
can do, the earlier we can do, the better for our Nation.
    So what I have, frankly, committed in earlier discussions 
with your staff and in discussions on my side with the PEO 
[program executive officer] for submarines and the industrial 
sector is to take a look at, can we, in fact, complete those 
design and development activities earlier than the 2019 
timeframe to give the Navy and the Nation the option to 
determine whether or not we want to advance Virginia Payload 
Modules earlier in the submarine build cycle. So we are doing 
that work right now, and we are doing that in the context of 
the other submarine work that is all coming together at the 
same time. So we have Virginia Payload Module design, and then 
we would have the build that comes with that, that increases 
the capacity throughput that would have to take place in our 
submarine build yards, on top of the sea-based strategic 
deterrent, the Ohio replacement program that is a 2021 start, 
but well before 2021, we are deep into design today, and we are 
going to be doing advanced construction activities at the same 
time.
    So we have to manage the total workload at the submarine 
yards. We have to determine can we, in fact, accelerate the 
design and development activities to support an earlier 
introduction to Virginia Payload Modules, and then look at 
balancing the workload across the two yards to do that. We are 
doing those studies right now in concert, frankly, with an 
overarching study that we are doing which is looking at how, in 
fact, are we going to build Ohio replacement in concert with 
the ongoing Virginia submarine construction, in concert with 
the introduction of Virginia Payload Modules all within a 
couple of year window.
    So the answer is we are looking at it. We have the right 
people looking at it. I would ask you to give us a couple of 
months to complete our review. And we will be ready to come 
back and give you more specifics in the March-April timeframe.
    Mr. Forbes. Would the gentleman yield?
    Mr. Secretary, we don't have a couple of months, so if you 
can narrow that scope down, it would be very, very helpful to 
us as we are looking to try to just accelerate a little bit of 
that. If it is not doable, it is not doable. But we have got 
some big gaps that are sitting out there. We just want to help 
you try to close those gaps. So anything you could get for us 
in a quicker timeframe, at least for this year, might be 
helpful to do that. So I know you can only do what you can do, 
but we just make that request to you.
    Secretary Stackley. Yes, sir.
    Sir, I will tell you, just to complete the thought, though, 
I don't expect there is going to be--I don't anticipate change 
to the early activities. It is really to take a look at the 
back end of the FYDP because that is where the mountain of the 
work is.
    Mr. Forbes. That is good. We recognize at this time Mr. 
Knight from California for 5 minutes if he has any questions.
    No questions.
    The gentleman from Montana is recognized for 5 minutes if 
he has any questions.
    Mr. Zinke. I do not, sir.
    Mr. Forbes. Then the vice chairman, Mr. Hunter, is 
recognized for 5 minutes.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, good to see you. Thank you for being here. This 
is the first question. MLP [Mobile Landing Platform], AFSB 
[Afloat Forward Staging Base], you mentioned that, General. I 
think we asked last NDAA [National Defense Authorization Act] 
to have some kind of a gap procurement from the Navy. It didn't 
go through. So if Congress finds the means to do that again to 
provide the moneys, is that good? I mean, do you want that? Do 
you need that, and can you put it to good use?
    Secretary Stackley. Sir, I think you are specifically 
referring to advance procurement.
    Mr. Hunter. Yes.
    Secretary Stackley. To be able to close the production gap 
at NASSCO [National Steel and Shipbuilding Company] associated 
with building the fifth of the MLP class, the third Afloat 
Forward Staging Base. The answer is, yes, it is desirable. You 
don't see it in our budget because, frankly, the appropriators 
have marked it out each time we have tried to put it in. So, 
for us, it is a challenge to put funding in if we know the 
appropriator is going to mark it out. So any assistance in that 
regard would be helpful to the industrial base, helpful to 
getting the capability earlier, but we recognize the challenge 
associated with the appropriators' view on that.
    Mr. Hunter. So I guess that kind of ties in too with 
amphibs, going from 38, which is the number that the Marine 
Corps and the Navy agreed upon that is needed to conduct the 
missions and the requirements from the combatant commanders 
throughout the world. Right? So you went down from 38 to 33. We 
really only have 31. You don't have MLP and AFSB on track right 
now because there is no advance procurement funding for it. 
Right? So they are semi on track. We have now closed three 
embassies in the last 6 years, had to evacuate them using 
Marines. You have less land-based places where you can now 
stage out of. Is that not a priority for the Navy and the 
Marine Corps to be able to operate? You can't operate out of 
the embassies. You can't operate off the land. You have to 
operate out of something. So what is the something? It can't be 
hope and good will. Right?
    Secretary Stackley. Let me start that the AFSB we just 
talked about is the third of the three that are planned. So the 
first two are on track. The third one is on track in terms of 
its full funding. The advanced procurement would allow that to 
effectively be brought to the left a year. So that capability--
--
    Mr. Hunter. For the shipyard?
    Secretary Stackley. For the shipyard, yes, sir. That 
capability, we place increasing value on it, particularly as--
you have walked the ship--particularly as you see all the 
opportunity that it brings, all the lift capacity that it 
brings. I will let General Glueck describe exactly how the 
Marine Corps is looking at that in terms of forward operating 
base effectively to support Marine Corps operations. But it has 
held a high priority in terms of the Navy's budget since we 
started with the MLP program.
    Mr. Hunter. Let me ask it this way. Does it offset the 
number of amphibs that you need, having it, having a forward 
staging base like that, where you can lift and move? Does that 
offset the number of amphibs? Is that one reason for the lower 
number, or are they two totally separate things?
    Admiral Mulloy. No, sir, it doesn't offset it. As a matter 
of fact, if you look at it, it is that the Force Structure 
Assessment will now actually go up to 34 ships because the LPD 
is being bought, and it actually modified that we have the 
third AFSB in. So they are not a substitute. What they are is 
enabler or other alternatives to put a special purpose MAGTF 
[Marine Air-Ground Task Force] on or other national mission 
forces. In fact, when the AFSB was initially designed, it was 
going to be to amplify mine hunting, and it actually was 
initially designed for two MH-53s and mine-hunting gear. And 
there were going to be two of them. The value of that has now 
made itself very clear is that now what it can--we have 
designed to work with NAVAIR [Naval Air Systems Command]--can 
take four V-22s on the same flight deck. And it is much more 
readily able to take the Marine Corps on it and also and/or 
National Mission Forces. So it doesn't offset the need, and we 
view it now as it puts the third--with the 33rd--or, pardon me, 
the 12th LPD and the statement of now that is 34, we are 
closing that gap. It comes back to being, how much money do we 
have? We looked at it was AFSBs plugged into the workload of an 
industrial base of NASSCO and, as Mr. Secretary pointed out, 
was AP [advance procurement] would help. The ship will still 
execute. The first ship is christened on time, and we are 
looking forward to the AFSB getting out there, and where it 
goes it's still under review. It could be in Africa. It could 
be in the Middle East. But we know it will be helpful. Last 
summer, we took New York City [USS New York (LPD-21)] out of 
cycle to go to the Mediterranean to embark on a National 
Mission Force to catch a terrorist. Very quickly they used a 
ship of opportunity. That ship is now in the Middle East. So 
what did we have to do? We double-pumped that crew. They went 
over, embarked the special people, landed, took that individual 
back, who is now in court in New York City awaiting trial. The 
ship came back, did a maintenance period, and now it is on 
deployment.
    The AFSB would give us the opportunity of having those 
AFSBs out there. You would still be able to embark Marines for 
rescue or special mission forces, and so that is how we view 
that ship in this important nest. And we are not detracting at 
all from the Marine Corps' requirement for amphib, sir.
    Mr. Hunter. Perfectly done on time in two, Admiral. Thank 
you.
    I yield back.
    General Glueck. Congressman, if I could add to that. What 
you, your numbers were correct, as you said, on the front, but 
the combatant commanders actually say the requirement is closer 
to 54. And I believe CNO has actually stated that, that is 
probably--he knows it is over 50. So when you only have--today, 
we are sitting with 31 amphibious ships, and you get a delta 
between 31 and 54, you know, we look at the AFSB and the MLP as 
ships that can help to fill that gap on the lower end of the 
military operational spectrum--not on the higher end. They have 
to be in a permissive environment.
    Now, the first AFSB, the Chesty Puller, was actually just 
christened about a week and a half ago. In fact, General 
Dunford was out there for the christening ceremony. And we see 
a lot of capability, potential in that ship, but once again, it 
is going to have to be in a permissive environment. You know, I 
have worked up actually a CONOPS [concept of operations] for 
the Commandant; that is something we could possibly use maybe 
in the Gulf of Guinea to be able to expand our reach of the V-
22s down in the southern region of Africa. Thank you.
    Mr. Hunter. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Forbes. The gentlelady from Guam is recognized for 5 
minutes.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    It is nice to be back on the Seapower Subcommittee.
    Secretary Stackley, Admiral Mulloy, and General Glueck, 
thank you for your testimony today and for being here with us.
    Vice Admiral Mulloy, I remember your service as Commodore 
of the Submarine Squadron 15 in Guam and your leadership during 
the successful dry-docking of the submarine tender USS Frank 
Cable in Guam in 2004, and it is good to see you again. Last 
year, MSC [Military Sealift Command] sent the submarine tender 
Emory S. Land from Guam all the way back to the United States 
West Coast for its overhaul.
    Admiral, what is the impact on fleet readiness of sending 
ships from their West Pac [Pacific] AGRs <dagger> back to the 
U.S. mainland for dry-docking?
---------------------------------------------------------------------------
    <dagger> Ms. Bordallo submitted a correction for the record 
changing ``AGR'' to ``AOR [area of responsibility].''
---------------------------------------------------------------------------
    Admiral Mulloy. Yes, ma'am. Thank you for your question and 
your introduction, and also good to see you again. The impact 
ends up being essentially in time. It takes about 2 to 3 weeks 
to transit, get the crew acclimated and back, so we lose a 
month or two of that one. It is a constant balance of what we 
have to do. Our goal, as stated by the CNO, is to commit and 
maintain a robust ship repair and maintenance capability in 
Guam. They all look at the spectrum of ships. And as you 
pointed out, the tenders have done maintenance in Guam. In some 
cases, we send them back. It really depends upon the sheer 
amount of work that has to be done about a life extension on a 
ship. That is what we are studying right now, is what capacity 
we have to have forward versus back. But the actual loss of 
time is probably about 6 weeks of total time. It is really just 
the transit time it requires.
    Ms. Bordallo. Thank you very much, Admiral, for the 
information.
    And, Secretary Stackley, in 2013, this committee raised 
serious concerns about the Navy's acquisition strategy to split 
pier-side ship repair from dry-docking depot-level capabilities 
in Guam. However, we understood that the dry-docking depot-
level capabilities would be restored as quickly as possible.
    In your July 2014 report on ship repair, you stated that 
this Navy is conducting a business case analysis [BCA] to 
develop options for providing a dry-docking capability in Guam. 
The results of this dry-docking capability BCA will be provided 
to Congress later this fall. Commander of U.S. Pacific Fleet 
has an operational requirement for a dry-docking capability in 
Guam. When can we expect to see the BCA, and when can we expect 
to see the dry-docking capability restored in Guam?
    Secretary Stackley. Let me first describe that the BCA that 
was--the first go at the BCA, in fact, did not address whether 
or not the business case for a dry dock in Guam makes sense. 
What the BCA did was started with the assumption that there is 
a dry dock in Guam, and now, what do we get out of it in terms 
of value? So it did not answer the first questions that, 
frankly, the CNO needs answered, which is, what will it cost to 
recapitalize the dry-dock capability in Guam? What is the 
extent for usage? And there is going to be planning, and we 
also have to consider emergent need for the dry dock. And then, 
in that case, does that argue for the investment in that dry-
dock capability? So, right now, that analysis is being reworked 
by Pac [Pacific] Fleet. It is owed to the CNO so that we can 
make the right investment decisions regarding the dry-dock 
capability.
    Ms. Bordallo. When will we see the analysis? What is the 
timeframe here?
    Secretary Stackley. I will have to get back to you for the 
record, ma'am.
    Ms. Bordallo. All right. Thank you very much.
    I yield back, Mr. Chairman.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Forbes. The gentleman from Virginia, Mr. Wittman, is 
recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Stackley, Vice Admiral Mulloy, and Lieutenant 
General Glueck, thank you so much for joining us. Thanks for 
your leadership.
    Secretary Stackley, traditionally, as you look at aircraft 
carrier buys, we have done them in two-ship procurements. And 
as you know, in the President's budget for 2016, the proposal 
is for advanced procurement on CVN-78 in a 1-year timeframe and 
potentially moving CVN-79 to the right. We have seen with 
Arleigh Burke-class destroyers, as we purchase ships in groups, 
we have seen about a 15 percent savings when we do that just 
because of certainty, especially for suppliers for those ships, 
especially aircraft carriers. Is there any consideration given 
to grouping advanced procurement on CVN-80 and CVN-81? And give 
us your perspective, too, potentially on movement to the right 
of CVN-79.
    Secretary Stackley. Let me start with the advanced 
procurement for CVN-80 and CVN-81. There is strong argument for 
why that makes great sense. When you are procuring an aircraft 
carrier about once every 5 years and you are relying on a very 
unique industrial base to do that, what you don't want to do is 
go through start-stop-start-stop cycle over a stretched period 
of time, and that is a big cost impact. The challenge is, by 
the same token, the build cycle for a carrier is greater than 
10 years. So CVN-79, for example, she started her advanced 
procurement in 2009, and she will be delivering to the Navy in 
2022. So that is a 13-year period. So when you talk about 
doubling down on buying the material to support two carriers 5 
years apart that have a 13-year build span, you are trying to 
buy material as much as 18 years ahead of when the carrier went 
to the fleet. It makes great sense looking at it just from the 
program's perspective on why we want to do that to drive the 
cost of the carrier down. There is risk associated with things 
like not necessarily obsolescence but change associated with a 
carrier because the threat changes and that brings change and 
then the investment that far in advance of when the asset 
actually enters the fleet. As the acquisition guy, I will argue 
for why we need to do that, but getting through, carrying that 
argument all the way through to say that we are going to take 
the 80, which is the 2018 ship, the 81, which is a 2023 ship, 
buy material early for that 2023 ship delivering to the Navy in 
the mid-2030s, that is going to be hard for me to carry the day 
in terms of our budget process. So we have to have the 
compelling case for the specific things from an industrial-
based perspective, from a move-the-needle--move the needle from 
a cost perspective--to justify the combined buys of 80 and 81 
together.
    Mr. Wittman. Well, it seems like, even if the scale is an 
issue as far as how much you would have to expand to do that 
and manage that within the budget, you could at least then 
identify those critical suppliers that look for certainty to 
make sure that they can continue providing those specialty 
parts, and if you could at least pare it down, again, at a 
critical mass to where you can demonstrate economies of scale 
of saving, that you could at least say these are the areas we 
need to maintain this industrial base, especially for small-
scale suppliers that rely on certainty to continue that effort. 
So have you all given any thought to be able to scale it at 
least within that area, maybe not to get 15 percent savings, 
but still create certainty and make sure the suppliers are 
there but also----
    Secretary Stackley. Yes, sir. We have a very concerted 
effort going on between the Navy and Newport News on all things 
cost-related to the CVN-78 class for all the right reasons. We 
are looking ahead at 80, which is a 2016, the advance 
procurement starts in 2016 for the 80. Most of that is going to 
be nuclear material. But Newport News has brought the 
initiative to the table in terms of combined buys for material. 
And now we have to sort out, can we, in fact, come up with the 
right list of material that makes sense to buy early, to buy 
combined, to get the savings, and not just people promising 
savings in the end, but to actually be able to book the savings 
so we can drive down the cost of those carriers? So I would say 
that we are working with industry on that. We have got a long 
way to go to be able to carry the day inside the budget 
process; first, inside the building, and then, again, I will 
tell you, we are going to have some challenges convincing some 
folks on the Hill that this makes sense to invest this early in 
a future aircraft carrier.
    And the other question you had about the CVN-79 schedule. 
CVN-79 is the replacement for the Nimitz. We have two things to 
struggle with. One is we want to build it earlier from the 
standpoint of efficiency with the shipyard. However, if we 
build it early, deliver it early, then we have an overlap 
between the 79 and the retirement of the CVN-68. What we can't 
afford to do is ramp up one extra aircraft carrier crew for a 
couple-year period. So what we are doing is we look at that as 
schedule flexibility. We are going to try to drive the CVN-79's 
construction to the left for efficiency purposes, but then we 
are going to look for a window, a second phase in the build 
process for the carrier, where we are going to bring in 
electronics, the electronics systems that will be obsolete if 
we were to buy them early. So we are going to buy them as late 
as possible, install them as late as possible, so that that the 
systems that we install are, in fact, state-of-the-fleet at the 
time that the carrier delivers.
    Mr. Wittman. I think that is the key to make sure that the 
overlap is there so as Nimitz retires and the CVN-79 comes on 
board, we don't good through the situation we were with Ford 
and Enterprise, to make sure we don't have a gap there.
    Mr. Chairman, thank you so much. I yield back.
    Mr. Forbes. Thank the gentleman.
    Mr. Langevin is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    Secretary Stackley, Admiral, General, thank you all for 
your testimony and all that you do to protect our Nation. I 
would like to start by expressing my appreciation for the 
significant efforts that the Navy has made to really push the 
art of the possible when it comes to cutting-edge technologies, 
be it directed at energy where the Ponce's deployment is 
teaching us so much right now or the work being done to test 
railgun at sea and possibly integrated into the third Zumwalt 
destroyer or the UCAS-D [Unmanned Combat Air System 
Demonstration] program's work on pushing the state of the art 
in unmanned carrier aviation. These are exactly the sorts of 
investments that we absolutely have to have to protect and 
allow to mature to enable the Navy that we will need in the 
future. I know this is something the chairman and the ranking 
member care deeply about, about giving us our future Navy today 
wherever possible. To our panel, let me just in particular ask, 
the Navy has projected a significant shortfall of land-attack 
cruise missiles capability with the retirement of the guided 
missile submarines in the 2020s. To address this shortfall, 
Navy has proposed to expand the Virginia-class submarines to 
accommodate additional land-attack cruise missiles capability 
beginning with Block V. However, even this effort in assuming 
that all the payload space is used for land attack will leave 
us significantly short relative to today's at-sea capacity. My 
questions are what options exist to mitigate the shortfall and 
accelerate the introduction of the Virginia Payload Module 
[VPM] capability? And can you also please describe industry's 
ability to potentially accelerate the design, production, and 
the fielding of Virginia Payload Modules should additional 
resources be provided. What would be the earliest boat that 
could include VPM if it we were accelerated?
    Secretary Stackley. Let me start by describing that our 
design activities were all geared toward the first boat of the 
next multiyear, which is in 2019. We have posed to the design 
team, come back and tell us, is it possible to accelerate that? 
That is an answer that I owe you later this spring in terms of 
what that would comprise. You have hit it exactly in terms of 
the capacity that leaves when we lose the four GNs [SSGNs]. 
More than just the possibility of accelerating VPMs by a year, 
the other thing we have to work through is the total volume of 
work that the submarine industrial base will be taking on 
during the decade of the 2020s to determine between our build 
rate for Virginias side by side with our build rate of Ohio 
replacement, alongside the Virginia Payload Modules. In that 
equation, is there the ability to, in fact, increase VPM 
production because right now we are planning on one Virginia 
per year with VPM beginning in 2019. So we are looking at, 
first, can we pull that to the left a year, and then the other 
thing, the other aspect is what would be our ability to 
increase the rate of production of VPMs beyond one per year, 
which is in our current long-range plan. Affordability comes 
into play. Industrial-based capacity comes into play, and it is 
too early yet to call that.
    Mr. Langevin. Thank you. Going back to the subject of 
directed energy, obviously these systems have numerous 
applications on a variety of different ship types. Which PEO 
will be the lead organization for oversight and execution by 
shipboard laser systems?
    Secretary Stackley. Right now, laser systems right now are 
being developed under the direction of the Office of Naval 
Research. They will get up to a certain level of technology 
maturity. Inside of the Naval Sea Systems Command, we have a 
program organization called Electric Ship's Office, which 
includes a power system to support directed energy. Ultimately, 
a PEO for Integrated Warfare System would take on a 
responsibility for directed energy, and then the shipbuilding 
program would have responsibility for the shipboard side of 
integrating that weapons system just like we do today with 
other conventional weapons. So, Office of Naval Research today, 
working with our Naval Surface Warfare Center down at Dahlgren, 
Virginia, transition technology, when it is mature, to PEO IWS 
[Integrated Warfare Systems], working with PEO Ships, most 
likely, for integration on a future ship program.
    Mr. Langevin. Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. Thank you, gentlemen.
    The gentlelady from Missouri, Ms. Hartzler, is recognized 
for 5 minutes.
    And before you, if you would just suspend for a moment, to 
our panelists, we are going to have votes, and we are going to 
have to recess for about 40 minutes. Are you guys okay with 
coming back? We have two of our members that have questions 
they would like to ask if you don't mind doing that.
    So Ms. Hartzler will be our last questioner at this time.
    Mrs. Hartzler. Thank you, Mr. Chairman. Just quickly, you 
said in your testimony that with the shift to the Pacific, by 
2020, did you say there would be 60 percent?
    Admiral Mulloy. Approximately 60 percent of the fleet.
    Mrs. Hartzler. Okay. I also read that if sequestration 
happens, you won't be able to have an aircraft carrier in the 
Mediterranean. Is that correct?
    Admiral Mulloy. Right now, ma'am, the Mediterranean is 
covered on transit protection. We are still looking at, as I 
mentioned in my opening, the full extent of the Budget Control 
Act [BCA] impacts on Navy would require an adjustment of the 
entire joint force. So right now we are able to supply what we 
call 1.0 presence in the Central Command in the Persian Gulf 
area around Saudi Arabia and approximately a 1.0 presence in 
the Pacific. What we provide presence in the Mediterranean and 
the Atlantic is what we call transit presence if we are moving 
through. But in a world situation--when Crimea was invaded, the 
carrier delayed in the Mediterranean before it went into the 
Middle East, and we then did a 2-week extension of the carrier 
in the Med--pardon me, in the Central Command so that we still 
had that overlap. Our plan would still remain the same. For a 
long-term operation in a BCA level, I cannot tell you what 
carrier presence would be. We are taking a look at what 
opportunities are out there, but what I will tell you is it 
remains bleak unless there is a fundamental change in strategy 
to what we have to do for the carrier presence around the 
world.
    Mrs. Hartzler. Thank you.
    Can you give me an update on the refueling of the George 
Washington?
    Admiral Mulloy. Do you want to start that, sir?
    Secretary Stackley. I would just say we signed the planning 
contract with Newport News in February. There is a 30-month 
planning window. So this is all the design activities. We start 
the material procurement to get everything in line so that when 
the GW [George Washington] shows up at the shipyard, she would 
start her nominally 44-month refueling complex overhaul [RCOH]. 
So that would be notionally the July 2017 timeframe would be 
the start of the RCOH, and it is pretty important we track to 
that schedule because what we want to do is minimize the extent 
of overlap with the next aircraft carrier, which is the 
Stennis. So if that RCOH starts much beyond July of 2017, then 
we get concerned about the combined 73/74 RCOHs at Newport News 
during that period.
    Mrs. Hartzler. And lastly, can you compare the building of 
our submarines compared with what China is doing as far as 
building submarines, the numbers and capability?
    Admiral Mulloy. I would have to come back to you with a 
correct answer about how many they built per year, but on 
whole, they are producing submarines. They may not be the same 
quality, but their submarine forces are growing over at a 
tremendous rate. They now have more diesel and nuclear attack 
submarines than we have. So they have passed us in total 
quantity, but in quality, they are still not there. But they 
are producing some fairly amazing submarines, and they are 
actually deploying them. They have now had three deployments 
into the Indian Ocean. They are expanding where their 
submarines go. And of great interest, we know one SSBN 
[ballistic missile submarine] was on an equivalent--we don't 
think they have nuclear weapons on board, but we have seen them 
producing the missiles and testing them. One SSBN did a 95-day 
period at sea, equivalent of a long patrol. So we know they are 
out experimenting and looking and operating and certainly want 
to be in this world of advanced submarines.
    Secretary Stackley. I would highly recommend a classified 
threat brief for the members of the subcommittee so we can go 
into detail so we can see beyond just submarines the level of 
activity that China has in terms of modernizing its force.
    Mrs. Hartzler. Absolutely. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Forbes. And, with that, we are going to recess for 
about 40 minutes until these three votes are over, and we will 
come back and finish up with our last two questions.
    [Recess.]
    Mr. Forbes. Gentlemen, first of all, thank so much for your 
patience in working with us on this. As you know, they don't 
call us and ask if these votes are convenient, but we 
appreciate you working with us.
    Now I would like to recognize the gentleman from 
California, Mr. Cook, for 5 minutes.
    Mr. Cook. Thank you very much, Mr. Chairman.
    And thank you very much for coming back. My question 
relates to what you are talking about, but I just got back 
from--we went to NATO [North Atlantic Treaty Organization], and 
we had a brief over there, and then we were in Turkey. And I am 
concerned about, you know, whether we are--and the number of 
platforms that we have, you mentioned how they are going to be 
diminished and yet the tempo of ops [operations] and the op 
plans and everything else, it is one after another after 
another. And it is like, can we actually cover all these 
contingencies or all these spots? When I was in NATO and they 
put the fear of God in me about Putin and, quite frankly, 
Estonia, Latvia, and Lithuania, and whether we have the 
platforms. Obviously, we discussed the Med [Mediterranean], but 
I was thinking of the Baltic, which I thought was a very, very 
shallow area that is limited in terms of what you could bring 
in there. But they have been running operations. And, of 
course, as somebody that is involved in NATO, the big threat is 
the attack on one of those smaller countries way at the end, 
close to Russia.
    Do we factor that into the platforms or maybe I have the 
misconception that we are building everything for--everything 
all over the world and whether we have to be more selective in 
our future plans based upon the contingency or the threats as 
they are evolving? You know, I don't mean to dwell on it too 
much, but 5 years ago, 10 years--you know, the Berlin Wall came 
down, and it is safe there. We are doing Kumbaya; everything 
has changed in a remarkably short period of time. So could you 
address that, please?
    Secretary Stackley. I will start and ask for Admiral Mulloy 
and General Glueck to add.
    Let me first describe that when we design our ships, when 
we set the requirements and do the design, we are looking at a 
ship with a service life that is going to extend 30 to 40 years 
on average. It is impossible to anticipate all the types of 
operations that any ship is going to be called upon in that 
service life. So, to the extent practical, we look for general 
purpose designs to be able to configure and be employed to deal 
with the full range of operations that the ship will be called 
upon.
    With specific regard to the regions that you have just 
described, where you have to deal with shallow water, 
restricted areas, and what we refer to as the littorals, in 
fact, earlier, about 10 years ago, we embarked on this thing 
called the Littoral Combat Ship, specifically a shallow draft, 
a modular design so you could have payloads that you could flex 
and adjust to depending on what the mission was to deal with 
those regions where our larger capital ships, from destroyers, 
cruisers, carriers, et cetera, would not be able to penetrate.
    In general, we look for general purpose ships that you can 
adjust their mission as the threat moves with specific regards 
to those regions where our larger bluewater Navy was not 
designed for operations. We did add to our fleet the Littoral 
Combat Ship that has that shallow draft, modular payload 
capability and, frankly, speed, which is your ally in those 
close-in regions.
    Mr. Cook. Didn't we cut back on those though? In terms----
    Secretary Stackley. No, in fact----
    Mr. Cook. Are we going forward with the----
    Secretary Stackley. We capped the modular version of the 
LCS at 32 ships. Frankly, the Secretary of Defense was 
concerned that we were going to build out to 52 LCSs, that 
would be one-sixth of our entire battle force being this 
modular configuration. So he tasked us with coming back with 
something that is, quote-unquote, more frigate-like, more 
multimission. And so, in fact, what we have going forward, 
first 32 ships will be the modular Littoral Combat Ship; the 
last 20 will be a multimission--still some modularity, but a 
multimission modified version of the LCS that gives it a wider 
range of operations.
    Admiral Mulloy. The only other part I would add, sir, as we 
look at the changing demographics of the world, the threat does 
morph in where we have to go, but as Mr. Secretary Stackley 
pointed out was the ability of our ships to flex in terms of 
payloads and weapons. So the concern on deployability and the 
combatant commanders, you are absolutely right. And that is one 
reason why, as I mentioned earlier, PB-16 [President's budget 
request for fiscal year 2016] is the minimum to be able to do 
this. We need the funds to go take our 285 ships right now and 
build them to 308 by the end of FYDP to be able to continue to 
support that.
    Ten years ago, we had 300-something ships, but we only had 
about 70 deployed. Now we have 100 deployed out of 300--or 280 
ships. So we are at the point of a ship comes back and 
immediately it rests, it does maintenance, and it just recycles 
back again to deploy. And so all the combatant commanders want 
them. So it is important that PB-16 reflects we need to keep 
building ships; we need to continue to maintain them; and we 
need to be able to make them available. And that is so really 
the combatant commanders to develop war plans or option plans 
with them, but the response is there. Within a short period of 
Crimea attack, we had a DDG [destroyer] in the Mediterranean. 
Within a short period on ISIL [Islamic State of Iraq and the 
Levant], we responded with an aircraft carrier. And for the 
first 54 days until we had country clearance, the only people 
bombing and attacking were American airplanes off of an 
aircraft carrier. So the flexibility of Navy and naval 
research, naval support vessels is so the Navy and Marine Corps 
team can respond very flexibly.
    Mr. Cook. Thank you.
    General Glueck. About 10 years ago, we used to have a 
Marine Expeditionary Unit that was deployed with their 
Amphibious Ready Group to the Mediterranean, but due to lack of 
capacity now, they are no longer stationed there. About the 
only opportunity you get is when they pass through, perhaps on 
their way to CENTCOM [Central Command]. I mean, that is a great 
opportunity; having been a new commander during that period of 
time, that is a great opportunity to build partnerships with 
our coalition partners over there, members of NATO, to exercise 
with them, to check our interoperability and be able to 
demonstrate that cohesive team that we have.
    Mr. Cook. Thank you.
    Mr. Forbes. The gentleman yields back.
    Ms. Gabbard is recognized for 5 minutes.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Gentlemen, thanks for your service and for being here today 
with us.
    I just wanted to ask about a problem that I think is well-
known and well-recognized, as we try to find the appropriate 
and effective solution to bring our Marines to shore safely, 
quickly, and from farther distances than I think ever before. 
As we look at some of the solutions that are being offered, I 
know there are many people who are working towards that. So 
far, it seems to be done on a little bit of an ad hoc, kind of 
scattershot way where certain people may be bringing solutions 
to one element or another, but really are not focusing on 
overall integration.
    I know of some who are working to go solve the high water 
speed problems specifically in working with the Marine Corps in 
order to figure out how to do that. But my question is, how can 
the Marine Corps leverage existing research and investment in 
existing capability, specifically talking about the ACV 
[Amphibious Combat Vehicle] to help design the next generation?
    Lieutenant General, please.
    General Glueck. Thanks for the question. It is really about 
the integration of all these capabilities. It is a family of 
systems is what we are talking about, and that has been our 
approach as we have come up with our capstone concept of 
Expeditionary Force 21. It is about that family of systems out 
there that is going to give us that leap-ahead capability.
    If you remember in my opening comments, I made a point 
about there is not going to be any one transformational 
capability that we are going to see over the surface. It is 
going to be the capabilities that exist today and how we better 
integrate them together to be able to give us that leap-ahead 
capability.
    So, for example, in a sea base, as you talk about where, 
due to the A2/AD [anti-access/area denial] threat, the sea base 
is actually getting pushed out further. And it is going to 
depend on the time and place as to how far that sea base will 
have to go. Within that sea base, not only will it have naval 
surface combatants, but you are also going to have members of 
the Maritime Prepositioned Fleet. So the AFSB, the MLPs, the 
Joint High Speed Vessels, and those are all going to be 
integrated because they are going to have a capability that we 
need at the sea base, where we are able to do at-sea arrival 
and assembly of the force in the sea base and be able to 
transfer those loads between combatant ships and some of the 
Maritime Prepositioned Ships. That is a real leap ahead. We are 
pushing full speed ahead on that and working into 
experimentation.
    Our concept is really, has been for the past 25 years, 
ship-to-the-objective maneuver. So your sea base can move 
around. You launch your vertical assault and your surface 
assault from wherever you move the sea base to. So, as we move 
to the future, actually, when we came up with the concept, 
there were actually three--it was called the triad. And it was 
the LCAC [Landing Aircraft Cushion]; it was the V-22; and it 
was the AAAV [Advanced Amphibious Assault Vehicle also known as 
Expeditionary Fighting Vehicle, EFV] is what we were looking 
at. Those were the three capabilities that we needed to be able 
to perform that.
    As you know, today, the V-22 is a success story. And so 
that, from a vertical perspective, we can go ahead and insert 
forces hundreds of miles behind enemy lines and be able to do 
that.
    On the connector side, on the surface side, it is really 
going to come down to connectors--connecting from the sea base 
to get to the shore. So how we best integrate those 
capabilities to get the greatest effect. Once again, we are not 
going to go ahead and try to find where the enemy is strongest. 
We are going to find where the enemy is weakest, and that is 
where we exploit it. So, I mean, when you look at the family of 
systems over the surface, you are talking about the LCACs, the 
LCUs [Landing Craft Utility]; you have got the Joint High Speed 
Vessel, which we are doing some research on right now to be 
able to put a ramp on it so that we could potentially launch 
vehicles while at sea with the Joint High Speed Vessel. And 
then, of course, we are going to modernize our AAVs, about 392 
of them. And the ACVs will take up the rest of our--not the 
amphibious lift but provide us the armored lift we need once we 
get ashore.
    Ms. Gabbard. Thank you.
    Do you have any additional comment on that?
    Secretary Stackley. I think General Glueck covered it 
pretty well. The only thing I would add is he touched on the 
LCACs. In fact, we have gone through a service life extension 
for the LCACs, and this year, we are moving forward with the 
next--what is referred to as ship-to-shore connector. And that 
features prominently in our budget across the FYDP as we ramp 
up production for that new connector.
    Ms. Gabbard. Thank you. Thank you, Mr. Chairman.
    Mr. Forbes. Gentlemen, once again, thank you so much for 
being here. I know we are living in some very, very dangerous 
times, very frustrating times. We appreciate you guys hanging 
in there and doing the work that you do.
    I also note, sometimes in a hearing like this, as you know, 
the important thing for us is preparing this transcript so we 
can use it for our markups. Our members are wonderful members, 
but they each run in different lanes, and they may have 
unintentionally left out something that you think is very 
important that we need to get on that record.
    So I would like to give each you a few minutes to wrap up 
in any way that you need to anything that you feel you need to 
clarify or that we didn't get on the record.
    Just in that process, the only thing I would ask you to do 
is share a little bit about the cruisers and where you see us 
going with those. We have expressed a concern that perhaps we 
may--we don't see that in the POM [Program Objective 
Memorandum] and that gives us a little bit of concern. But I 
would like to make sure that we are committed to that 
modernization to do it.
    Admiral Mulloy, if we could start with you, and thank you 
once again for being here, and any closing comments you would 
like to offer.
    Admiral Mulloy. Well, first, thank you, Mr. Chairman. I 
would like to close with--and I will get to the cruisers--is 
that, as we pointed out, was sequestration or any attempt to 
adjust to a BBA [Bipartisan Budget Act] law for 2016 we find 
would be highly detrimental to the Department of Defense and 
especially the Department of Navy. We have a number of items 
that we continue to move ahead in this Navy. The LCS is 
important to us. The Ohio replacement program we have already 
talked about.
    So the whole gamut of what the fleet is laying in those 
aircraft carriers, and what I look for as the Navy's chief 
financial officer is adequate, predictable, and timely budgets. 
So far, we barely got adequate, and it has been real efforts 
out of this committee and other committees to make sure that we 
have something, but what they defined as being adequate is $25 
billion short.
    Predictable is not very high, except the one year that we 
had the 15 is now I view as a high water mark of stability, but 
it is $11 billion short of where I told us, you know, it needed 
to be. So I don't need more predictability that. I will be like 
General Pyrrhus in Southern Italy here in 479 facing the 
Romans, and one more battle like this, I am lost.
    And I need a timely budget. It has certainly been less of a 
shorter CR [continuing resolution] this year, but I was budget 
officer for 4 years and was N8 for another one, and every year, 
we have had a CR of various lengths. So we need to move ahead 
on that. We really need to have it.
    I appreciate your process, Mr. Chairman, and your committee 
to move ahead this year to say, we are going to move ahead of 
budget.
    When I look at the cruisers, I will tell you everyone--we 
are all in on doing that. We have two ships that we are 
starting this year; we have two more. There was a question 
about what do we do when that law came out--2/4/6. When that 
law finalized in early December, we had about 1 week to lock 
this budget. In that period of time, we could not use the SMOSF 
[Ship Modernization, Operation, and Sustainment Fund] where we 
were planning to use it for operations and maintenance. The 
Navy made adjustments as we locked the budget to add just a 
little bit under $500 billion for operation and maintenance for 
the other seven ships that we expected to be in this phased 
modernization program, but not. So we adjusted the program to 
fit and comply to the law, the SMOSF fund will pay for 
modernization through the FYDP. What we have to go back now and 
look at as we develop the next POM--and we are looking for 
signals from the Hill--would be is are there other additions to 
SMOSF? Then can we count on that account? And what can we do 
about trying to support this law, because we acknowledge that 
we want the ships; we are taking care of them; and we need that 
cruiser plan. But we also want to make sure we extend the life 
of them so that we can have those cruisers for a long time, 
sir.
    Mr. Forbes. Thank you.
    General Glueck, thank you, again, for all your service and 
for being here. Any closing comments you would like to get on 
the record?
    General Glueck. Yes, sir, Mr. Chairman.
    Last year I requested your support in funding flexibility 
for the Amphibious Combat Vehicle way ahead. Because of your 
support, the Amphibious Combat Vehicle program is poised for 
successful transition to our RFP [request for proposal] by the 
end of March.
    Secondly, I requested your support on the development of 
high water speed capability through an aggressive science and 
technology program, and that is moving out smartly.
    Lastly, I requested your increased amphibious ship 
investment in both platforms and maintenance. Today, we have a 
funded LPD-28, a defined way ahead on the LX(R), and programmed 
approximately $1 billion dollars for amphibious maintenance 
modernization across the FYDP. So I want to say thank you.
    But I also come with my hat in hand. This year, I request 
your support in both continued amphibious ship and ultimate 
platform investment, particularly in the LX(R) and the 
increased capability of LHA-8; continued support of our combat 
vehicle strategy to replace supporting 40-year-old-plus AAVs 
that we have in the inventory; and lastly, your support for 
science and technology continued efforts to gain high water 
speed. Thank you.
    Mr. Forbes. Thank you, General.
    Mr. Secretary, we will give you the final word.
    Secretary Stackley. Yes, sir. Very briefly, we spent a lot 
of this hearing discussing concerns with sequestration, the 
impact of sequestration. What we have delivered to the Hill is 
the program, the budget, that we believe is essential to meet 
the Nation's security requirements from the Navy-Marine Corps 
perspective. The impact of the last several years of 2013 
sequestration, the BBA's impact in 2014 and 2015. You have 
heard us describe that we pulled away from the capabilities 
that we believe we need, either in terms of timeliness or in 
terms of capacity, and it has had a similar impact in terms of 
the industrial base.
    So, first and foremost, we want to provide you the 
information and the armor that you need in order to fight the 
sequestration and BCA in 2016 and out. Our first priority is to 
hold onto the program that we have delivered to the Hill. And 
we want to provide you the best information that you need to be 
able to support that.
    Much of this hearing has been on shipbuilding. That is the 
nature of your Navy-Marine Corps team. We are on path today to 
get to a 300-ship Navy by the 2019 timeframe. In the interim, 
we are working our ships hard. The deployment ratios, their 
dwell time, the length of their deployments, is bringing a lot 
of wear and tear to the force and you are starting to see that 
stack up in the depots. So the ship count is critical because 
the demand for presence is not going to go down. So you have 
been our partner for your time here on the committee in terms 
of supporting our shipbuilding requirements, and we look 
forward to continuing down that path. We need these ships. 
Their demand overseas is not going to go down. It is only going 
to increase when you look at the 2020 timeframe. We are not 
looking at 100 ships being deployed. We are looking at 115 
ships deployed. And the greatest challenge, the greatest threat 
we have to that today is the threat of sequestration. So let us 
know how we can help you in your battles here in the halls of 
Congress to try to reverse what poses a great threat to our 
Navy-Marine Corps team.
    Mr. Forbes. Thank you all. Thank you for all the team that 
worked with you. And to members of the committee, thank you.
    And, with that, we are adjourned.
    [Whereupon, at 4:19 p.m., the subcommittee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           February 25, 2015

=======================================================================

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 25, 2015

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 25, 2015

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO

    Secretary Stackley. The Navy remains committed to maintaining a 
robust ship maintenance and repair capability in Guam. The dry dock 
specific business case analysis (BCA) prepared by the Pacific Fleet did 
not have the depth and scope necessary to fully inform the Navy on how 
best to address the need for repair facilities in the Western Pacific. 
Some of the underlying assumptions made when conducting the analysis 
need to be revisited, which may affect conclusions regarding the 
affordability of recapitalizing dry docking capability in Guam.
    The Navy recently initiated a warfighting assessment that will help 
define the required repair capabilities in the Pacific. This analysis 
will be much broader in scope than the BCA. However, when taken in 
conjunction with the BCA (after revisiting and validating the excepted 
assumptions), this warfighting assessment will allow the Navy to make 
more complete and informed resourcing decisions on this important 
issue. This work is to be completed sufficiently to inform the Fiscal 
Year 2017 President's Budget request, and will be adjudged alongside 
the full range of requirements competing for funding in the budget.   
[See page 12.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 25, 2015

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. Mr. Stackley, you signed out a memo on 8 August 2014 
to the Office of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, highlighting the benefits of accepting non-
Navy workload to offset the rising costs of maintaining NWCF 
infrastructure.
    Among the benefits of the Navy Working Capital Fund, you indicate 
that it aligns with Better Buying Power Initiatives, it will assist in 
establishing the Navy as a lead systems integrator for certain 
programs, and establishes more hands-on work at our Navy Laboratories, 
among other benefits.
    If OSD concurs with your approach, what are your next steps to 
rescind any existing policies and required approvals that have deterred 
Navy Work Capital Fund activities from accepting non-Navy work in the 
past?
    Secretary Stackley. Execution of non-Naval work is assessed 
routinely in conjunction with Systems Command reviews and any changes 
to related policy will be considered in this forum. Naval Laboratories 
are authorized to accept and execute non-Naval work that reinforces the 
skill sets of the workforce critical to their mission and helps off-set 
the total cost of operations. Commanders are required to ascertain to 
their chain of command that the skills and capacity to accomplish non-
Naval work are consistent with their assigned areas of expertise.
    It is worth noting that since this policy was put in place, non-
Naval work at the Naval Laboratories actually increased by nearly six 
percent from FY2013 to FY2014. The Department of the Navy will continue 
to follow a disciplined work acceptance approach to ensure the non-
Naval workload is executed in accordance with the missions and 
capacities of the respective Naval Laboratory and to ensure the talent 
of the science and engineering workforce is optimized to meet current 
and future Naval missions.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I am encouraged by continued investment in 
technologies that support our military strategy in the Asia-Pacific 
region. As you know, the Pacific is incredibly large--over 165 million 
square kilometers. While the vastness of the Pacific region presents a 
tremendous challenge, new technologies have the potential to greatly 
enhance situational awareness and operations in the Pacific. In 
particular, I am encouraged about how unmanned systems like the MQ-4C 
Triton, with its persistence, endurance, and range, can meet the unique 
challenges of the region.
    How important is Triton to the Pacific maritime surveillance 
strategy, and have you explored opportunities to accelerate Triton to 
meet our growing needs in the region?
    I understand that many of the combatant commanders, particularly 
U.S. Pacific Command have ISR requirements that exceed their current 
capability to execute. How do you plan to address this shortfall?
    Secretary Stackley and Admiral Mulloy. The MQ-4C Triton is a key 
component of the Navy Maritime Patrol Reconnaissance Force. Its 
persistent sensor dwell, combined with networked sensors, will enable 
it to effectively meet ISR requirements in support of the Navy Maritime 
Strategy. MQ-4C Triton plans to operate from Guam in 2017 and is an 
integral part of increasing our presence in the Asia-Pacific region.
    The FY 2016 budget request reduces risk in the Navy's Maritime 
Intelligence, Surveillance, Reconnaissance, and Targeting (MISR&T) 
Transition Plan in both capacity and capability. In addition, the Navy 
continues to work with the Joint Staff, Office of the Secretary of 
Defense, and the Fleet to optimize the Navy's MISR&T Transition Plan 
and comply with the FY 2011 National Defense Authorization Act (NDAA). 
Despite budgetary pressures forcing a reduction in procurement 
quantities of baseline air vehicles, the Navy was able to maintain 
fielding timelines for the future force and continue development of 
future sensors. The current fiscal environment limits our ability to 
accelerate the MQ-4C program without incurring significant risk 
elsewhere. Timely and predictable system delivery is crucial to the 
Navy's plan for meeting the intent of the FY 2011 NDAA. Due to the 
MISR&T Transition Plan's dependence on timely fielding to limit 
increased costs of sustaining legacy (EP-3E) platforms, continued 
Congressional support for the MQ-4C program is vital to transition 
success.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. I am curious what your current plan is to upgrade or 
replace the Navy's medium-lift helicopter fleet in the near future? The 
Seahawk helicopter is a workhorse and is performing admirably but with 
production ending for both the MH-60S and the MH-60R I am told that now 
is the time to start planning for mid-life upgrades and/or a 
replacement aircraft. I am concerned that sequestration has caused the 
Navy to defer this planning for other priorities and would like to know 
that you do indeed have a plan for both upgrades and eventual 
replacement.
    Secretary Stackley. MH-60S deliveries conclude in December 2015. 
MH-60R deliveries will continue through mid-2018. The Navy plans to 
maintain both airframes through 2030. The MH-60S Program plans to 
commence a Service Life Assessment Program (SLAP) in Fiscal Year (FY) 
2016 to determine what potential modifications may be required to keep 
the airframe viable through its planned service life. MH-60R SLAP 
activities may begin later than the MH-60S as the aircraft was 
introduced to the Fleet after the MH-60S.
    Additionally, the Navy has an ongoing Aircraft Modification Program 
that includes a number of efforts addressing warfighter capability 
improvements, obsolescence, and safety. These efforts will assist in 
ensuring airframe and system components are supported through the life 
of the H-60.
    Lastly, the Navy's FY 2016 budget submission includes a new Program 
Element, titled MH-XX, that directs Naval Aviation developmental 
activities in support of the recapitalization of the Navy H-60 series 
helicopters, multi-mission medium lift helicopter capability, in the 
2028 timeframe. The Navy is participating in the OSD mandated, Army led 
Future Vertical Lift effort to recapitalize DOD's helicopter fleet. 
These efforts will enable timely development of a system in support of 
the Navy's 30-year Aviation Plan.
    Mr. Hunter. While the Navy's SCN and tactical aviation budget 
accounts generate headlines and attention, I am concerned that serious 
readiness and quality of life issues impacting our Navy are going 
unaddressed. Specifically, I am concerned that many of our sailors are 
being housed in substandard and outdated quarters when they are placed 
on APL berthing barges.
    Typically, sailors are placed on these berthing barges when their 
ships are in port for repairs, maintenance or when conducting Inter-
Deployment Training Cycles. For frame of reference, approximately 400 
sailors can be housed on an APL Small, and roughly 1,000 sailors can be 
housed on an APL Large.
    However, these deteriorating and aging vessels have significant 
health, safety, and quality of life deficiencies. Overhead clearances 
are only 5,8" to 6,2" high on the main deck and below. The main 
engineering spaces have encapsulated asbestos covering pipes and lead 
base paint on bulkheads and decks. Sixty-year old steam systems leak 
and are in constant need of repair.
    Thirteen of the seventeen APLs in service today were built during 
the 1944-1946 time frame, which makes them almost seventy years old. In 
one case, The Navy's Board of Inspection and Survey (INSURV) Quicklook 
Report 221618Z of May 2, 2002, found APL-40 ``unfit for human 
occupancy.''
    Would you agree that our sailors deserve better than to live on 
these substandard, antiquated, and hazardous APL barges?
    Can the Navy support a strategy to procure APL Small berthing 
barges as soon as FY2015 and certainly during FY2016 through 2020?
    Do I have a commitment from you that the Navy will work with 
Congress to determine if there are sufficient funds on hand (FY2015) to 
begin the process of procuring replacement vessels for the legacy APL 
fleet?
    Admiral Mulloy. [No answer was available at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. I co-chair the Working Group on Electronic Warfare, 
a warfare domain that is particularly important to Indiana given the 
important work NSWC Crane does in EW R&D, acquisition, testing, 
fielding, and sustainment, including SEWIP and Next Generation Jammer, 
one of the largest EW initiatives in history.
    Despite these and other efforts, the threat continues to evolve at 
an alarming pace. Given how dependent we are on having access to the 
Electromagnetic Spectrum for success on the battlefield, what is being 
done to develop the next generation of EW and keep pace with threats?
    A recent Defense Science Board study found major deficiencies in 
Electronic Warfare across the services. It recommended establishing an 
Executive Office within OSD AT&L for EW to synchronize EW requirements, 
technology development, initiative and operational concepts across the 
Services. What are your thoughts on this recommendation, and what do 
you think can be done to improve EW integration, specifically in terms 
of developing an integrated EW strategy/roadmap?
    How can Congress help the Defense Department streamline its 
acquisition process specifically in this area, including possibly 
circumventing the JROC process?
    Secretary Stackley. To inform development of the next generation of 
EW capability and pace advanced threats, U.S. Fleet Forces developed 
the Navy Electromagnetic Maneuver Warfare (EMW) Campaign Plan, which 
identifies efforts across four lines of operation: training and 
certification; strategic communications; experimentation and tactics; 
and investments and future capabilities. Naval Surface Warfare Center 
(NSWC) Crane, with the largest EW expertise in the DOD, has a leading 
role in identifying the future capabilities the Navy needs to meet 
warfighting requirements. To align EW efforts across DOD, the Deputy 
Secretary of Defense recently directed the establishment of an 
Electronic Warfare Executive Committee to develop a comprehensive, 
cross-Service EW and acquisition strategy. We fully support this 
effort. With respect to DOD acquisition processes, it will be critical 
for us to leverage rapid acquisition opportunities and maintain an 
acquisition workforce with sufficient EW expertise to drive design, 
development and procurement of new capabilities in response to the 
changing threat environment. We must also ensure our acquisition 
process reward procurement of systems that are built on open 
architectures to allow more flexible, rapid updates and modifications 
so we can pace the threat.
    Mrs. Walorski. Who's responsible and accountable for EW in the Navy 
and Marine Corps, respectively? If what Admiral Greenert has said is 
true, that this is the next warfare domain, who ``owns'' it for each of 
these services?
    Secretary Stackley and Admiral Mulloy. The Chief of Naval 
Operations (CNO) directed U.S. Fleet Forces Command (USFF) to lead the 
overall effort to ensure Navy's ability to fight and win in a contested 
and congested electromagnetic environment. USFF developed an 
Electromagnetic Maneuver Warfare (EMW) Campaign Plan that identifies 
how the Navy will man, train and equip the force for EMW. As the Navy's 
Executive Agent for EMW, USFF is accountable to CNO for implementation 
and refinement of the plan. Navy operational commanders, resource 
sponsors, program managers and systems commands at all levels of the 
Navy will have a role in implementing that campaign plan.
    Mrs. Walorski. Who's responsible and accountable for EW in the Navy 
and Marine Corps, respectively? If what Admiral Greenert has said is 
true, that this is the next warfare domain, who ``owns'' it for each of 
these services?
    General Glueck. The Commandant of the Marine Corps receives advice 
and recommendations from multiple sources to support key decisions 
associated with his statutory responsibilities. These decisions include 
manpower, acquisition, and resourcing matters directly affecting the 
capabilities and effectiveness of the Service. The Deputy Commandant 
for Combat Development and Integration (DC CD&I) is assigned as the 
Marine Corps integrator with the authority and responsibility to 
conduct capabilities-based force development. For Electronic Warfare 
(EW), as with other capabilities, DC CD&I develops and implements 
capability portfolio management processes supported by other advocates, 
proponents, and commanders providing subject matter expertise and 
services (e.g., training, acquisition, etc.).
    While the Marine Corps recognizes the interdependencies between EW 
(and broader electromagnetic spectrum operations (EMSO)) and cyberspace 
operations (CO), at present these two mission areas remain separate, 
pending potential changes in Joint and/or Service doctrine. In the 
meantime, Marines will explore ways to achieve the inherent advantages 
of closely coordinating the execution of EW and CO. For instance, in 
May 2014, DC CD&I approved the Marine Air-Ground Task Force Cyberspace 
and Electronic Warfare Coordination Cell Concept. This concept 
envisions the MAGTF with an organic capability for planning, executing, 
and assessing the integrated employment of CO and EW capabilities in 
support of MAGTF operations.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
